No. 19-123
IN THE

i§upreute Court of the ?friniteb Mateo
SHARONELL FULTON, ET AL,
Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF FOR CITY RESPONDENTS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,996 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 13, 2020.

Colin Casey ogan
Wilson-Epes Printing Co., Inc.

